Nos. 19-251 & 19-255
IN THE

Supreme Court of the United States

d

AMERICANS

FOR

PROSPERITY FOUNDATION ,
Petitioner,

—v.—

XAVIER BECERRA , IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA ,
Respondent.
THOMAS MORE LAW CENTER ,
Petitioner,
—v.—
XAVIER BECERRA , IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF CALIFORNIA ,
Respondent.
ON WRITS OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF AMICI CURIAE OF THE AMERICAN CIVIL
LIBERTIES UNION, INC., AMERICAN CIVIL LIBERTIES
UNION FOUNDATION, INC., NAACP LEGAL DEFENSE
AND EDUCATIONAL FUND, INC., KNIGHT FIRST
AMENDMENT INSTITUTE AT COLUMBIA UNIVERSITY,
HUMAN RIGHTS CAMPAIGN, AND PEN AMERICAN
CENTER, INC., IN SUPPORT OF PETITIONERS
Sherrilyn A. Ifill
President and DirectorCounsel
Janai S. Nelson
Samuel Spital
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND , INC .
40 Rector Street, 5th Floor
New York, NY 10006

Brian M. Hauss
Counsel of Record
Jennesa Calvo-Friedman
Ben Wizner
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
bhauss@aclu.org
(Counsel continued on inside cover)

Mahogane D. Reed
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
700 14th Street, NW
Washington, DC 20005
Alex Abdo
Ramya Krishnan
KNIGHT FIRST AMENDMENT
INSTITUTE AT COLUMBIA
UNIVERSITY
475 Riverside Drive, Suite 302
New York, NY 10115
Alphonso B. David
Sarah Warbelow
Jason E. Starr
THE HUMAN RIGHTS CAMPAIGN
1640 Rhode Island Ave, NW
Washington, DC 20036
Nora Benavidez
PEN AMERICA
588 Broadway, Suite 303
New York, NY 10012

David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
INTERESTS OF AMICI CURIAE.............................. 1
SUMMARY OF ARGUMENT .................................... 4
ARGUMENT ............................................................... 7
I.

COMPELLED DISCLOSURES THAT
INFRINGE ASSOCIATIONAL PRIVACY
ARE SUBJECT TO EXACTING
SCRUTINY ....................................................... 8

II.

PUBLIC-DISCLOSURE REQUIREMENTS
ARE CONSTITUTIONALLY SUSPECT,
EXCEPT IN CIRCUMSTANCES WHERE
THEY ARE CLOSELY TIED TO AN
ESPECIALLY IMPORTANT
GOVERNMENTAL INTEREST, SUCH AS
THE INTEREST IN PUBLIC OVERSIGHT
OF CAMPAIGN FINANCE ........................... 14

III.

CALIFORNIA’S DE FACTO PUBLICDISCLOSURE REQUIREMENT IS NOT
SUBSTANTIALLY RELATED TO ANY
SUFFICIENTLY IMPORTANT
GOVERNMENTAL INTEREST .................... 22

CONCLUSION.......................................................... 28

i

TABLE OF AUTHORITIES
CASES
Ams. for Prosperity v. Grewal, No. 319-CV-14228,
2019 WL 4855853 (D.N.J. Oct. 2, 2019) ......... 21, 22
Bates v. City of Little Rock,
361 U.S. 516 (1960) ................................... 12, 13, 15
Brown v. Socialist Workers ’74 Campaign Comm.
(Ohio), 459 U.S. 87 (1982) ..................................... 17
Buckley v. Valeo, 424 U.S. 1 (1976) ................... passim
Cal. Bankers Ass’n v. Schultz,
416 U.S. 21 (1974) ................................................. 12
Citizens Against Rent Control/Coal. for Fair Hous. v.
City of Berkeley, 454 U.S. 290 (1981) ...................... 9
Citizens Union of N.Y. v. Att’y Gen.,
408 F. Supp. 3d 478 (S.D.N.Y. 2019) .. 19, 20, 21, 27
Citizens United v. FEC,
558 U.S. 310 (2010) ................................... 17, 20, 27
Citizens United v. Schneiderman,
882 F.3d 374 (2d Cir. 2018) ............................ passim
Cmty-Serv. Broad. of Mid-Am., Inc. v. FCC,
593 F.2d 1102 (D.C. Cir. 1978).............................. 24
De Jonge v. Oregon, 299 U.S. 353 (1937) ................... 9
Gibson v. Fla. Legis. Investigation Comm.,
372 U.S. 539 (1963) ............................................... 11
Hague v. CIO, 307 U.S. 496 (1939) ............................ 9
John Doe No. 1 v. Reed, 561 U.S. 186 (2010) ..... 13, 15

ii

Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961) ............................................... 11
McConnell v. FEC, 540 U.S. 93 (2003) ..................... 27
McIntyre v. Ohio Elections Comm’n,
514 U.S. 334 (1995) ......................................... 18, 19
Mobile Republican Assembly v. United States,
353 F.3d 1357 (11th Cir. 2003) ............................. 13
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ........................................ passim
NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982) ................................................. 9
Regan v. Tax’n with Representation of Wash.,
461 U.S. 540 (1983) ............................................... 13
Roberts v. U.S. Jaycees, 468 U.S. 609 (1984) ............. 9
Shelton v. Tucker, 364 U.S. 479 (1960) .............. 12, 15
Talley v. California, 362 U.S. 60 (1960) ................... 18
Vill. of Schaumburg v. Citizens for a Better Env’t,
444 U.S. 620 (1980) ............................................... 25
Whitney v. California, 274 U.S. 357 (1927) ............... 9
STATUTES
26 U.S.C. § 6104 ........................................................ 22
Cal. Code Regs. tit. 11, § 301 .................................... 14
Cal. Code Regs. tit. 11, § 310(b) ............................... 23
Cal. Gov’t Code § 12585 ............................................ 14
N.J. Admin. Code § 19:25-2.4(a) ............................... 21

iii

REGULATIONS
26 C.F.R. § 1.6033-2(a)(2)(ii)(f) ................................. 22
26 C.F.R. § 1.6033-2(a)(2)(iii)(a) ............................... 22
OTHER AUTHORITIES
Alexis de Tocqueville, DEMOCRACY IN AMERICA
(Harvey C. Mansfield & Delba Winthrop eds.,
2000) ......................................................................... 8
Consent Order Converting Prelim. Inj. into Final J.
Permanently Enjoining Enforcement of P.L. 2019,
Ams. for Prosperity, No. 3:19-CV-14228 ............... 22

iv

INTERESTS OF AMICI CURIAE 1
The American Civil Liberties Union, Inc.
(ACLU) is a nationwide, nonpartisan, organization
with nearly 2 million members dedicated to defending
the principles of liberty and equality embodied in the
Constitution and the nation’s civil rights laws. It is
also a D.C. nonprofit corporation, and an organization
described under Section 501(c)(4) of the Internal
Revenue Code. The American Civil Liberties
Union Foundation, Inc. (ACLU Foundation) is an
affiliate of the ACLU, a New York not-for-profit
corporation, and an organization described in Section
501(c)(3) of the Internal Revenue Code.
Both the ACLU and the ACLU Foundation are
subject to the disclosure demand at issue in this case.
Additionally, the First Amendment freedom to
associate, and the concomitant right to associational
privacy, are issues of great concern to the ACLU, its
members, and the ACLU Foundation. The ACLU and
the ACLU Foundation have participated in cases
concerning associational privacy. See, e.g., Cal.
Bankers Ass’n v. Schultz, 416 U.S. 21, 55–57, 75–76
(1974) (ACLU challenged, on behalf of itself and its
members, certain recordkeeping and disclosure
provisions of the Bank Secrecy Act of 1970). More
recently, the ACLU and ACLU Foundation, together
with their state affiliates, have participated as
plaintiffs in lawsuits challenging laws requiring
nonprofit organizations to publicly disclose certain
Pursuant to Rule 37.6, amici affirm that no counsel for any
party authored this brief in whole or in part and that no counsel
or party made a monetary contribution intended to fund the
preparation or submission of this brief. Respondent has
consented to this amici curiae brief, and Petitioners have filed
blanket consent letters on the docket.
1

1

donor information. See Citizens Union v. Att’y Gen.,
408 F. Supp. 3d 478 (S.D.N.Y. 2019); ACLU of N.J. v.
Grewal, No. 3:19-CV-17807 (D.N.J. Mar. 11, 2020).
The
NAACP
Legal
Defense
and
Educational Fund, Inc. (LDF) is a non-profit, nonpartisan legal organization founded in 1940 to achieve
racial justice and to ensure the full, fair, and free
exercise of constitutional and statutory rights for
Black people and other communities of color. As an
organization that has engaged in litigation and
advocacy that some have considered controversial,
LDF has long had an institutional interest in ensuring
the First Amendment associational rights and
security interests of its donors and members. To that
end, LDF has litigated many of the cornerstone legal
authorities at the heart of this case, including NAACP
v. Alabama ex rel. Patterson, 357 U.S. 449 (1958)
(litigated and argued by Thurgood Marshall, with the
assistance of Robert L. Carter and other LDF
attorneys), and Louisiana ex rel. Gremillion v.
NAACP, 366 U.S. 293 (1961) (argued by Robert L.
Carter and litigated by LDF attorneys).
The Knight First Amendment Institute at
Columbia University (Knight Institute) is a nonpartisan, not-for-profit organization that works to
defend the freedoms of speech and the press in the
digital age through strategic litigation, research, and
public education. The Institute’s aim is to promote a
system of free expression that is open and inclusive,
that broadens and elevates public discourse, and that
fosters creativity, accountability, and effective selfgovernment. The Knight Institute is particularly
committed to protecting against the compelled
disclosure of personal expressive or associational
information that would chill core political activity. For
2

instance, the Institute is currently representing two
U.S.-based documentary film organizations in a
challenge to a State Department requirement that
individuals applying for visas from abroad—including
many of the plaintiffs’ members and partners—
register their social media handles with the
government. See Doc Society v. Blinken, No. 1:19-cv03632 (D.D.C.). As the Petitioners argue here, the
lawsuit claims that the disclosure requirement
significantly burdens protected expression and
association and is not sufficiently tailored to the
government’s asserted interests.
The Human Rights Campaign (HRC), the
largest national lesbian, gay, bisexual, and
transgender political organization, works to build an
America where lesbian, gay, bisexual, and
transgender (LGBTQ) people are ensured of their
basic equal rights, and can be open, honest and safe at
home, at work, and in the community. HRC has an
interest in this case due to its status as a 501(c)(3)
organization, the associational privacy interests of its
members and donors, and its historical vantage. HRC
has over three million members and supporters in all
fifty states; some of those members and donors are
public about their LGBTQ status, advocacy, or
interests—and some are not. HRC engages in
fundraising in various states and periodically receives
contributions from donors who wish to remain
anonymous, pseudonymous, or discreet. HRC
members, supporters, and staff have faced threats and
harassment and reasonably expect to encounter them
in the future. Moreover, having been founded in
1980—a time when it was still deemed a criminal
offense to be LGBTQ in many parts of America—HRC
is keenly aware of the pressure and persecution that
3

early LGBTQ charities and organizations faced over
the years, including in the hands of state officials.
PEN American Center, Inc. (PEN America
or PEN) is a nonprofit organization that represents
and advocates for the freedom to write and freedom of
expression, both in the United States and abroad.
PEN America is affiliated with more than 100 centers
worldwide that comprise the PEN International
network. Its Membership includes more than 7,500
journalists, novelists, poets, essayists, and other
professionals. PEN America stands at the intersection
of journalism, literature, and human rights to protect
free expression and individuals facing threats for their
speech. PEN America has a particular interest in
opposing censorship schemes in all forms that inhibit
creative and free expression. PEN champions the
freedom of people everywhere to write, create
literature, convey information and ideas, and express
their views, recognizing the power of the word to
transform the world. PEN America supports the First
Amendment and freedom of association in the United
States.
SUMMARY OF ARGUMENT
I.
The disclosure law at issue here, at least
as it has been implemented by California, risks
undermining the freedom to associate for expressive
purposes. That freedom, in turn, is fundamental to our
democracy, and has long been protected by the First
and Fourteenth Amendments. A critical corollary of
the freedom to associate is the right to maintain the
confidentiality of one’s associations, absent a strong
governmental interest in disclosure. If the State could
categorically demand disclosure of associational
information, the ability of citizens to organize to
4

defend values out of favor with the majority would be
seriously diminished. As this Court recognized in
NAACP v. Alabama ex rel. Patterson, 357 U.S. 449
(1958), the compelled disclosure of an expressive
association’s members or supporters threatens to chill
free association, because people may refrain from
exercising those freedoms rather than expose
themselves to government reprisal or private
retaliation.
Disclosure requirements that threaten to chill
the exercise of First Amendment rights are subject to
exacting scrutiny: the government must establish that
the disclosure requirement is substantially related to
a sufficiently important governmental interest to
justify the attendant chilling effect. This is a slidingscale test that imposes a more stringent burden of
justification on the government in direct proportion to
the disclosure requirement’s chilling effect.
II.
In general, the compelled disclosure of
associational information to the public dramatically
increases the risk of private retaliation against the
members and supporters of potentially controversial
groups, is more likely to chill the exercise of
associational freedoms, and is therefore subject to a
more stringent form of exacting scrutiny than the
compelled disclosure of information to the government
on a confidential basis.
Exacting scrutiny is not fatal in fact, however.
The compelled public-disclosure of associational
information is often permissible when the interests
served by the disclosure are especially significant. In
the campaign finance context, for example, public
disclosure can be substantially related to the
government’s interests in deterring public corruption,
5

identifying violations of substantive campaign finance
restrictions, and informing the electorate. This Court
has
accordingly
upheld
public-disclosure
requirements for electioneering communications in
the run-up to an election and express advocacy for the
election or defeat of particular candidates for elective
office.
In other contexts, where public disclosure is not
substantially related to especially important
governmental interests, this Court has often struck
down laws compelling the public disclosure of
expressive or associational information. Applying
these precedents, lower federal courts have properly
held that laws broadly compelling nonprofit
organizations to publicly disclose their donors fail
exacting scrutiny and violate the First Amendment.
III. California’s
blanket
demand
for
nonprofit organizations’ IRS Form 990 Schedule B
documents, which include the names and addresses of
major donors, is not designed to facilitate public
disclosure; indeed, California is ostensibly committed
by law to maintaining the confidentiality of nonprofits’
Schedule B forms. But in light of California’s record of
inadvertently publicizing these sensitive documents,
its demand should be treated as a de facto publicdisclosure requirement, triggering a more stringent
form of exacting scrutiny. The record in this case
discloses a disturbing pattern of failures to keep the
forms confidential. California’s assurances that
previous mistakes will not be repeated is unlikely to
persuade donors that their information, once handed
over to the State, will remain confidential. The
resulting chill to First Amendment interests harms
donors, nonprofit organizations, and civil society writ
large.
6

California has not carried its burden of
justification under the exacting scrutiny applicable to
compelled
public-disclosures
of
associational
information. In the absence of a substantial risk of
public disclosure, California’s asserted interests in
investigative efficiency and fraud prevention may well
sustain its disclosure demand; however, these
interests are insufficient to justify the substantial
chill threatened by the State’s de facto publicdisclosure requirement. California cannot force
nonprofit organizations and their supporters to bear
the risk of the State’s demonstrated inability to
maintain the confidentiality of sensitive associational
information.
The Court should therefore uphold Petitioners’
as-applied challenge to California’s donor-disclosure
demand. As-applied, rather than facial, relief is
appropriate in this case because Petitioners’ First
Amendment claim depends heavily on fact-specific
circumstances contributing to the disclosure
requirement’s chilling effect. The Court need not
decide at this juncture whether California could apply
the disclosure requirement to Petitioners and
similarly
situated groups
if it eventually
demonstrates that it is capable of maintaining the
confidentiality of Schedule B forms.
ARGUMENT
“Inviolability of privacy in group association
may in many circumstances be indispensable to
preservation of freedom of association, particularly
where a group espouses dissident beliefs.” NAACP v.
Alabama ex rel. Patterson, 357 U.S. 449, 462 (1958).
Disclosure requirements that threaten to chill
expression and association are therefore subject to
7

exacting scrutiny—a sliding-scale test that requires
the government to show that its interest in forcing the
disclosure is sufficient to justify the disclosure
requirement’s actual burden on the challenger’s First
Amendment rights.
Because public disclosure of expressive or
associational information is particularly likely to chill
the exercise of First Amendment freedoms, an
especially stringent form of exacting scrutiny applies
to public-disclosure requirements. That is the
appropriate standard here, even though the
challenged law formally requires only disclosure to the
government, and not to the public, because California
has repeatedly failed to protect the confidentiality of
the records sought. In other words, California’s
disclosure demand is a de facto public-disclosure
requirement, and should be subject to particularly
stringent exacting review. Even public-disclosure
requirements have been upheld where the
government demonstrates that they are carefully
tailored to an especially important interest, such as
the interest in public oversight of campaign finance.
In this case, however, California has failed to
demonstrate that its de facto public-disclosure
requirement is appropriately tailored to any
sufficiently important governmental interest.
I.

COMPELLED
DISCLOSURES
THAT
INFRINGE ASSOCIATIONAL PRIVACY
ARE SUBJECT TO EXACTING SCRUTINY.

“In democratic countries the science of
association is the mother science; the progress of all
the others depends on the progress of that one.” Alexis
de Tocqueville, DEMOCRACY IN AMERICA 492 (Harvey
C. Mansfield & Delba Winthrop eds., 2000). As this
8

Court has recognized, the First and Fourteenth
Amendments established constitutional protection for
this fundamental democratic practice. “The practice of
persons sharing common views banding together to
achieve a common end is deeply embedded in the
American political process.” Citizens Against Rent
Control/Coal. for Fair Hous. v. City of Berkeley, 454
U.S. 290, 294 (1981); see also NAACP v. Alabama, 357
U.S. at 460 (“It is beyond debate that freedom to
engage in association for the advancement of beliefs
and ideas is an inseparable aspect of the ‘liberty’
assured by the Due Process Clause of the Fourteenth
Amendment, which embraces freedom of speech.”).
Some of this Court’s most enduring precedents
reinforce this fundamental principle. See Roberts v.
U.S. Jaycees, 468 U.S. 609, 622 (1984); NAACP v.
Claiborne Hardware Co., 458 U.S. 886, 907–08 (1982);
Hague v. CIO, 307 U.S. 496, 512–13 (1939); De Jonge
v. Oregon, 299 U.S. 353, 364 (1937); Whitney v.
California, 274 U.S. 357, 372–73 (1927) (Brandeis, J.,
concurring).
In NAACP v. Alabama, the Court established
that the “compelled disclosure of affiliation with
groups engaged in advocacy may constitute a[n]
effective . . . restraint on freedom of association,” in
violation of the First and Fourteenth Amendments.
357 U.S. at 462. In that case, Alabama sued the
NAACP, alleging that the organization failed to
comply
with
certain
statutory
qualification
requirements imposed on out-of-state corporations
conducting business in Alabama. 357 U.S. at 451. On
the same day the suit was filed, the trial court issued
an ex parte order prohibiting the NAACP from doing
any business in the state or taking steps to satisfy the
qualification requirements. Id. at 452–53. After the
9

NAACP demurred and moved to dissolve the ex parte
order, the state moved for an order compelling the
NAACP to produce for the Attorney General’s
inspection a list of its members and agents in
Alabama. Id. at 453. The state argued that these
records were necessary to establish whether the
NAACP was engaged in intrastate business within the
meaning of the qualification statute. Id. The trial
court ordered the NAACP to produce the requested
records and, after the NAACP refused to disclose its
membership lists, issued a civil contempt judgment
against the NAACP. Id.
Recognizing that “[i]nviolability of privacy in
group association may in many circumstances be
indispensable to preservation of freedom of
association, particularly where a group espouses
dissident beliefs,” id. at 462, this Court reversed the
civil contempt judgment. As the Court observed, the
NAACP had shown “that on past occasions revelation
of the identity of its rank-and-file members has
exposed these members to economic reprisal, loss of
employment, threat of physical coercion, and other
manifestations of public hostility.” Id. Alabama
argued that the reprisals perpetrated against the
NAACP’s members were the result of “private
community pressures,” rather than state action, but
this Court rejected the distinction, noting that “it is
only after the initial exertion of state power
represented by the production order that private
action takes hold.” Id. at 463. In short, the disclosure
order infringed the NAACP’s freedom to associate
because the “fear of exposure of their beliefs shown
through their associations and . . . the consequences of
this exposure” threatened to “induce members to

10

withdraw from the Association and dissuade others
from joining it.” Id. at 462–63.
The Court proceeded to analyze whether the
state’s interest in obtaining the NAACP’s membership
records was “sufficient to justify” the burden imposed
by the disclosure order. Id. at 463. It concluded that
the compelled disclosure did not have a “substantial
bearing” on the state’s legitimate investigatory
interests, because the NAACP had already admitted
that it was operating in the state, had offered to
comply in all respects with the qualification statute,
and had already turned over all records subject to the
disclosure order except its membership lists. Id. at
464. The Court accordingly concluded that the state
had “fallen short of showing a controlling justification
for the deterrent effect on the free enjoyment of the
right to associate which disclosure of membership lists
is likely to have.” Id. at 466.
In the wake of NAACP v. Alabama, this Court
repeatedly blocked government attempts to compel
the NAACP to disclose its members and donors. See
Gibson v. Fla. Legis. Investigation Comm., 372 U.S.
539, 551 (1963) (reversing a contempt judgment
against the president of the NAACP’s Miami branch
for refusing to comply with a subpoena requiring him
to bring the NAACP’s membership list to legislative
committee hearings for the purpose of verifying the
organization’s membership); Louisiana ex rel.
Gremillion v. NAACP, 366 U.S. 293, 296 (1961)
(upholding a temporary injunction that prohibited
Louisiana from compelling the NAACP to comply with
a statute requiring nonprofit organizations to file
annually with the Secretary of State a list disclosing
the names and addresses of their members and
officers in the state); Bates v. City of Little Rock, 361
11

U.S. 516, 527 (1960) (reversing convictions against
NAACP officers under municipal ordinances requiring
all local organizations to disclose identifying
information for their members and contributors,
which information would then be made available for
public inspection by law). The Court has similarly
invalidated state laws requiring individuals to
disclose their organizational memberships to the
government. See Shelton v. Tucker, 364 U.S. 479, 490
(1960) (striking down an Arkansas statute requiring
public school teachers to file annual affidavits with
the relevant hiring authority listing every
organization to which they belonged or regularly
contributed over the preceding five years).2
Over time, the Court elaborated the exacting
scrutiny standard to assess the constitutionality of
disclosure requirements that threaten to chill
associational freedoms. See Buckley v. Valeo, 424 U.S.
1, 64 & n.73 (1976) (per curiam) (“We long have
recognized that significant encroachments on First
Amendment rights of the sort that compelled
disclosure imposes cannot be justified by a mere
showing of some legitimate governmental interest.
Since NAACP v. Alabama we have required that the
subordinating interests of the State must survive
exacting scrutiny.” (collecting cases)). Exacting
scrutiny “requires a substantial relation between the
The Court has noted that “the invasion of privacy of belief may
be as great when the information sought concerns the giving and
spending of money as when it concerns the joining of
organizations, for ‘[f]inancial transactions can reveal much about
a person’s activities, associations, and beliefs.’” Buckley v. Valeo,
424 U.S. 1, 66 (1976) (alteration in original) (quoting Cal.
Bankers Ass’n v. Schultz, 416 U.S. 21, 78–79 (1974) (Powell, J.,
concurring)).
2

12

disclosure requirement and a sufficiently important
governmental interest. To withstand this scrutiny, the
strength of the governmental interest must reflect the
seriousness of the actual burden on First Amendment
rights.” John Doe No. 1 v. Reed, 561 U.S. 186, 196
(2010) (citations and internal quotation marks
omitted). In other words, exacting scrutiny is a
sliding-scale test, where the government’s burden of
justification is proportional to the chill threatened by
the disclosure requirement. Disclosure requirements
that are more likely to chill associational freedoms
must be more narrowly tailored to stronger
governmental interests to survive review.
Courts apply a different test when the
government compels the disclosure of sensitive
associational information as a prerequisite for a tax
exemption or a similar benefit. See Mobile Republican
Assembly v. United States, 353 F.3d 1357, 1361 (11th
Cir. 2003) (holding that Section 527(j) of the Internal
Revenue Code, which requires political organizations
to disclose the name, address, and occupation of
certain contributors in order to qualify for tax-exempt
status, “enacted no barrier to the exercise of the
appellees’ constitutional rights” (citing Regan v. Tax’n
with Representation of Wash., 461 U.S. 540, 544, 549
(1983))); cf. Bates, 361 U.S. at 527 (rejecting the cities’
argument that the compelled disclosures were
necessary to administer occupational license taxes,
where there was no indication the NAACP was subject
to the taxes and the NAACP had not applied for any
exemption).
Because
California’s
disclosure
requirement applies without regard to whether a
charitable organization seeks tax-exempt status
under California law, these cases are inapposite here.
See Cal. Gov’t Code § 12585; Cal. Code Regs. tit. 11, §
13

301. Thus, California’s disclosure demand must be
evaluated under exacting scrutiny.
II.

PUBLIC-DISCLOSURE REQUIREMENTS
ARE CONSTITUTIONALLY SUSPECT,
EXCEPT IN CIRCUMSTANCES WHERE
THEY ARE CLOSELY TIED TO AN
ESPECIALLY IMPORTANT GOVERNMENTAL INTEREST, SUCH AS THE
INTEREST IN PUBLIC OVERSIGHT OF
CAMPAIGN FINANCE.

Disclosure requirements that directly or
indirectly lead to the release of sensitive associational
information to the public are subject to a more
stringent form of exacting scrutiny than limited
disclosures to the government. “[W]hen information
about one’s donation to a group is available to the
public, it is more plausible that people who are
opposed to the mission of that group might make a
donor suffer for having given to it.” Citizens United v.
Schneiderman, 882 F.3d 374, 384 (2d Cir. 2018)
[hereinafter Citizens United II]. In general, the
compelled disclosure of expressive or associational
information to the public is therefore more likely to
chill the exercise of First Amendment rights than the
compelled disclosure of such information to the
government on a reliably confidential basis.
In NAACP v. Alabama, for instance, the
threatened chilling effect was predicated on the risk
that public revelation of the NAACP’s Alabama
membership would give rise to “private community
pressures” against the NAACP’s members, 357 U.S. at
463, including “economic reprisal, loss of employment,
threat of physical coercion, and other manifestations
of public hostility,” id. at 462. Similarly, in Bates, the
14

“fear of community hostility and economic reprisals
that would follow public disclosure of the [NAACP’s]
membership lists had discouraged new members from
joining the organizations and induced former
members to withdraw.” 361 U.S. at 524. And in
Shelton, the Court recognized that the mere
possibility that teachers’ organizational affiliations
might be publicly disclosed contributed substantially
to the statute’s chilling effect. 364 U.S. at 486 & n.7.
In short, the risk that sensitive associational
information will be publicly revealed “raise[s] the
stakes” of a First Amendment challenge, and requires
the government to carry a correspondingly heavier
burden of justification. Citizens United II, 882 F.3d at
384.
Even the more stringent form of exacting
scrutiny, however, is far from fatal in fact. The
government may compel public disclosure of
expressive or associational information where it is
substantially related to important governmental
interests. The Court should be careful to avoid
overbroad pronouncements that might call into
question the viability of disclosure requirements in
appropriate contexts. For instance, public-disclosure
requirements serve especially compelling interests in
the context of electoral campaigns, where
transparency furthers the interest in “curbing the
evils of campaign ignorance and corruption.” Buckley,
424 U.S. at 68; see also Doe, 561 U.S. at 199 (“Public
disclosure . . . promotes transparency and
accountability in the electoral process to an extent
other measures cannot.”).
In Buckley, this Court held that the disclosure
provisions of the Federal Election Campaign Act did
not violate the First Amendment. Those provisions
15

required any “individual or group, other than a
political committee or candidate, who makes
contributions or expenditures of over $100 in a
calendar year other than by contribution to a political
committee or candidate” to file quarterly reports with
the Federal Election Commission, which then made
the reports available for public inspection and
copying. Buckley, 424 U.S. at 63–64 (citation and
internal quotation marks omitted).
While acknowledging that exacting scrutiny
was warranted “because compelled disclosure has the
potential for substantially infringing the exercise of
First Amendment rights,” the Buckley Court held that
disclosure requirements in the campaign finance
context advance three governmental interests related
to the “free functioning of our national institutions,”
id. at 66 (citation omitted): (1) providing information
to voters, so that they can evaluate candidates for
office; (2) deterring public corruption and the
appearance
of
corruption
through
public
transparency; and (3) facilitating the detection of
violations of FECA’s contribution limitations. Id. at
66–68. In particular, Buckley noted that FECA’s
disclosure requirements were “part of Congress’ effort
to achieve ‘total disclosure,’” in response to “the
legitimate fear that efforts would be made, as they had
been in the past, to avoid the disclosure requirements
by routing financial support of candidates through
avenues not explicitly covered by the general
provisions of the Act.” Id. at 76.
The plaintiffs conceded that FECA’s disclosure
requirements “certainly in most applications appear
to be the least restrictive means of curbing the evils of
campaign ignorance and corruption,” id. at 68, but
they challenged the application of the disclosure
16

requirements to minor parties and independent
candidates. Observing that it was “highly speculative”
whether the disclosure requirement would impose
“any serious infringement on [the] First Amendment
rights” of minor parties and independent candidates,
the Court refused to exempt them categorically. Id. at
70–73. The Court, however, acknowledged that a
party may be entitled to as-applied relief under
NAACP v. Alabama where it demonstrates “a
reasonable probability that the compelled disclosure
of [its] contributors’ names will subject them to
threats, harassment, or reprisals from either
Government officials or private parties.” Id. at 74; see
also Brown v. Socialist Workers ’74 Campaign Comm.
(Ohio), 459 U.S. 87 (1982).
The plaintiffs also challenged the application of
the disclosure requirements to independent
expenditures. Buckley, 424 U.S. at 75. The Court held
that FECA’s disclosure requirement for independent
expenditures, narrowly construed to encompass only
express advocacy for or against a candidate while
excluding other forms of partisan discussion, was
sufficiently related to the government’s interest in
informing the electorate to survive exacting scrutiny.
Id. at 80–81. See also Citizens United v. FEC, 558 U.S.
310, 368–69 (2010) [hereinafter Citizens United I]
(upholding the Bipartisan Campaign Reform Act’s
public disclaimer and disclosure requirements for
electioneering communications, on the ground that
these requirements were substantially related to the
government’s compelling interest in informing the
electorate regarding the source of speech about
candidates shortly before an election).
Outside the candidate electoral context, this
Court has often struck down laws compelling public
17

disclosure of expressive or associational information,
after concluding that they were not substantially
related to an important governmental interest. See,
e.g., Talley v. California, 362 U.S. 60 (1960)
(invalidating a Los Angeles ordinance prohibiting the
distribution of handbills that did not identify the
names and addresses of persons who prepared,
distributed or sponsored them).
The Court’s decision in McIntyre v. Ohio
Elections Comm’n, 514 U.S. 334 (1995), is instructive.
In that case, a woman was prosecuted under an Ohio
statute prohibiting the distribution of anonymous
campaign literature expressing her opposition to a
proposed school tax levy. Id. at 337–38 & n.3. The
state asserted that the statute was substantially
related to “its interest in preventing fraudulent and
libelous statements and its interest in providing the
electorate with relevant information.” Id. at 348.
This Court rejected both justifications. It held
that the statute was not substantially related to the
government’s interest in preventing fraudulent and
libelous statements, because it “encompasse[d]
documents that are not even arguably false or
misleading,” and because Ohio had failed to
demonstrate that the restriction was either necessary
or sufficient to prevent such statements. Id. at 351–
53. The Court also held that “[t]he simple interest in
providing voters with additional relevant information
does not justify a state requirement that a writer
make statements or disclosures she would otherwise
omit,” at least with respect to pure issue advocacy. Id.
at 348.
The McIntyre Court distinguished Buckley by
pointing out that, whereas FECA’s disclosure
18

requirements were limited to expenditures in
candidate elections, Ohio’s statute applied directly to
pure speech regarding public referenda or other issuebased ballot measures, such as McIntyre’s anonymous
leaflets about the proposed school tax levy. Thus,
Ohio’s statute was “more intrusive” than FECA,
because “[d]isclosure of an expenditure and its use,
without more, reveals far less information” than
disclosure of an author’s identity, id. at 355; and
Ohio’s statute “rest[ed] on different and less powerful
state interests” than FECA, because candidaterelated speech carries a greater risk “that individuals
will spend money to support a candidate as a quid pro
quo for special treatment after the candidate is in
office” than pure issue advocacy, id. at 356.
Applying these precedents, lower federal courts
have properly held that laws compelling nonprofit
organizations to publicly disclose the identities of
their donors, without a substantial nexus to a
sufficiently important governmental interest, violated
the First Amendment. In Citizens Union of N.Y. v.
Att’y Gen., 408 F. Supp. 3d 478 (S.D.N.Y. 2019), a
district court invalidated a New York donor-disclosure
law. The law required Section 501(c)(3) organizations
to publicly disclose all donors who contributed more
than $2,500, “if the 501(c)(3) itself makes an in-kind
donation to a 501(c)(4) that engages in lobbying in
New York, either on its own behalf or through a
retained lobbyist.” Id. at 489. It required Section
501(c)(4) organizations to publicly “disclose donors
who contributed $1,000 or more,” if “the 501(c)(4)
expends more than ten thousand dollars in a calendar
year on communications made to at least 500
members of the public concerning the position of any
elected official relating to any ‘potential’ or pending
19

legislation, unless the donors made contributions only
into a segregated account not used to support such
communications.” Id. at 491–92.
First, the court held that the donor-disclosure
requirement imposed on 501(c)(3) organizations was
not substantially related to any sufficiently important
governmental interest to justify the public-disclosure
requirement’s chilling effect. Id. at 504. The court
observed that the laws upheld by this Court in cases
like Buckley, and Citizens United I compelled the
public disclosure “of those contributing to candidates”
or to “campaigns supporting identified candidates.”
Id. None of those laws “approached the tangential and
indirect support of political advocacy” conducted by
501(c)(3) organizations. Id.
Along the same lines, the court held that the
donor-disclosure requirement imposed on Section
501(c)(4) organizations—which was not confined to
those circumstances “where the entity engages in
express advocacy for a candidate or electioneering,”
but rather applied to a “broad[] swath” of “pure issue
advocacy before the public”—infringed “[t]he First
Amendment rights to publicly discuss and advocate on
issues of public interest, and to do so anonymously.”
Id. at 506–07. New York asserted an interest in
informing the public about the identities of those
funding pure issue advocacy, but the court responded
that “[t]he cases upholding donor disclosure
requirements have never recognized an informational
interest of such breadth.” Id. at 507. To the contrary,
this Court’s precedents “strongly suggest that
compelled [public] identity disclosure is impermissible
for issue-advocacy communications” untethered to
electioneering. Id. As noted elsewhere in Citizens
Union, however, the application of exacting scrutiny
20

is quite different with respect to confidential
disclosures to the government that are not at
substantial risk of becoming public. See id. at 501–02
(citing Citizens United II, 882 F.3d at 384).
The
distinction
between
disclosure
requirements closely tied to electoral expenditures
and those, like the one at issue here, that apply
broadly to nonprofits also informed a recent decision
invalidating a New Jersey disclosure law. Ams. for
Prosperity v. Grewal, No. 319-CV-14228, 2019 WL
4855853 (D.N.J. Oct. 2, 2019). The statute at issue
required “independent expenditure committees”—
defined as Internal Revenue Code Section 527 and
Section 501(c)(4) organizations that spent more than
$3,000 on political communications annually—to
disclose the identities of donors who contributed more
than $10,000 annually to the state’s Election Law
Enforcement Commission, id. at *1, which would then
make the disclosures available for public inspection,
N.J. Admin. Code § 19:25-2.4(a). On the plaintiff’s
motion for preliminary injunction, the court held that
it was likely to succeed in demonstrating that the Act’s
donor-disclosure requirement facially violated the
First Amendment. Ams. For Prosperity, 2019 WL
4855853, at *19.
While acknowledging that “[c]ourts have found
a substantial relation for what have come to be called
electioneering communications, as well as for direct
lobbying,” id. at *16 (collecting cases), the court
concluded that New Jersey’s statute swept far more
broadly. The New Jersey statute applied to
“practically any media spending,” during almost any
time of the year, that includes “any fact or opinion
about a candidate or public question.” Id. at *17–*19.
The court’s preliminary injunction was subsequently
21

converted into a permanent injunction with New
Jersey’s consent. Consent Order Converting Prelim.
Inj. into Final J. Permanently Enjoining Enforcement
of P.L. 2019, c. 124, Ams. for Prosperity, No. 3:19-CV14228.
These cases reflect a critical distinction. Where
public-disclosure requirements are closely tailored to
especially important governmental interests, as in the
carefully defined campaign finance context, they may
satisfy exacting scrutiny. Beyond these narrow
circumstances, however, public-disclosure requirements generally fail exacting scrutiny.
III.

CALIFORNIA’S DE FACTO PUBLICDISCLOSURE REQUIREMENT IS NOT
SUBSTANTIALLY RELATED TO ANY
SUFFICIENTLY IMPORTANT GOVERNMENTAL INTEREST.

Unlike the laws discussed above, California
does not ostensibly seek to compel public disclosure of
nonprofit organizations’ donors listed on their IRS
Form 990 Schedule B documents.3 California law
expressly requires state officials to keep nonprofit
organizations’ Schedule B forms confidential under
almost all circumstances. See Cal. Code Regs. tit. 11,
Schedule B requires nonprofit organizations to list the names
and addresses of individuals who contributed $5,000 or more in
a given tax year. 26 C.F.R. § 1.6033-2(a)(2)(ii)(f). Certain
nonprofit organizations, such as Petitioners, need only list the
names and addresses of individuals who contributed more than
$5,000 if their donations accounted for more than 2% of the
organization’s charitable receipts that year. Id. § 1.60332(a)(2)(iii)(a). The IRS does not include Schedule B forms among
the documents it makes available for public inspection. See 26
U.S.C. § 6104.
3

22

§ 310(b). However, California has repeatedly failed to
maintain the confidentiality of this information. As
such, the disclosure demand as applied should be
treated as requiring de facto public disclosure and, for
that reason, subjected to a more stringent form of
exacting scrutiny. As explained below, California’s
disclosure demand fails that scrutiny.
The breaches of confidentiality here were
massive. While this case was pending before the
district court, Petitioner Americans for Prosperity
Foundation identified 1,778 confidential Schedule Bs
that the Attorney General had inadvertently posted
on the State Registry of Charitable Trusts’ website,
“including 38 which were discovered the day before . .
. trial.” Pet. App. 52a.4 Among these were the Schedule
B form for Planned Parenthood Affiliates of
California, which contained the names and address of
hundreds of donors. Id. Some Schedule B forms had
remained on the website since 2012. Pet. App. 36a.
Additionally, “[b]y altering the single digit at the end
of the URL” corresponding to each file on the Registry
website, Petitioner’s expert witness “was able to
access, one at a time, all 350,000 of the Registry’s
confidential documents.” Pet. App. 36a.
To be sure, “the sheer possibility that a
government agent will fail to live up to her duties” is
not a sufficient basis “to assume those duties are not
binding.” Citizens United II, 882 F.3d at 384. In this
case, however, California’s “systematic incompetence
in keeping donor lists confidential [is] of such a
All references to the Appendix to the Petition for Certiorari in
this amici curiae brief refer to the Appendix to the Petition for
Certiorari in Americans for Prosperity Foundation v. Becerra, No.
19-251.
4

23

magnitude as to effectively amount to publication.” Id.
(parenthetically summarizing the district court’s
findings in this case). California has pledged to
address the identified security vulnerabilities,
implementing procedural quality checks and adopting
other safeguards. Pet. App. 36a–37a. But these midlitigation assurances are cold comfort to donors
concerned that they may be exposed to harassment if
their identities are publicly revealed, given the long
history of inadvertent disclosure in this case and the
irreparable nature of privacy violations.
Petitioners have also demonstrated that their
donors are likely to be chilled by their legitimate fear
that public disclosure of their identities could lead to
reprisals. Indeed, Petitioners have shown that people
publicly associated with their organizations have been
subjected to threats, harassment or economic
reprisals in the past. Pet. App. 31a–33a. Cf. CmtyServ. Broad. of Mid-Am., Inc. v. FCC, 593 F.2d 1102,
1118 (D.C. Cir. 1978) (en banc) (“To be sure, where
actual instances of harassment are established . . . the
case is a stronger one . . . The absence of such concrete
evidence [of threats, harassment, or reprisals],
however, does not mandate dismissal of the claim out
of hand; rather, it is the task of the court to evaluate
the likelihood of any chilling effect, and to determine
whether the risk involved is justified in light of the
purposes served by the statute.”). Given the
apparently significant possibility that California will
once again inadvertently disclose nonprofits’ Schedule
B forms, Petitioners’ donors—and many donors to
nonprofit
organizations
across
the
political
spectrum—will understandably choose to limit their
associations rather than expose themselves to an
increased risk of harassment or reprisals.
24

The chilling effect created by California’s
disclosure demand under these circumstances will not
just affect donors, however. Nonprofit organizations
must decide whether to comply with California’s
disclosure demands, thereby jeopardizing their
relationships with donors who do not want their
information to be at substantial risk of public
disclosure, or forfeit their right to solicit donations in
the country’s largest state. See Vill. of Schaumburg v.
Citizens for a Better Env’t, 444 U.S. 620, 632 (1980)
(holding that the First Amendment protects
charitable appeals for funds). Thus, both individuals
and organizations must pay the price for California’s
inadvertent disclosures. Ultimately, the public as a
whole will suffer from a diminished civil society if
people do not feel free to associate without risk of
reprisals.
Thus, in the context of Petitioners’ as-applied
challenges, California’s donor-disclosure requirement
must be evaluated under the exacting scrutiny applied
to the compelled public-disclosure of associational
information for potentially controversial groups. On
this record, the requirement cannot satisfy that
demanding standard.
California has not argued that public disclosure
of nonprofit organizations’ Schedule B forms is
substantially related to any important governmental
interest; nor could it, since the disclosures at issue
here were contrary to California law. Instead,
California argues that it needs blanket, preinvestigation access to nonprofit organizations’
Schedule B forms in order to “polic[e] charitable fraud
and self-dealing.” Br. in Opp. 22–24. The District
Court did not find this interest especially compelling.
Noting that California had not identified “even a
25

single, concrete instance in which pre-investigation
collection of a Schedule B did anything to advance the
Attorney General’s investigative, regulatory or
enforcement efforts,” it found that California’s
disclosure requirement “demonstrably played no role
in advancing the Attorney General’s law enforcement
goals for the past ten years.” Pet. App. 47a. The Court
of Appeals rejected this finding, however, crediting
testimony that Schedule B information facilitates
investigative efficiency and allows the Attorney
General’s office to flag suspicious activity without
tipping off the organization under investigation. Pet.
App. 17a–22a (citing Citizens United II, 882 F.3d at
382).
These law enforcement interests may justify
disclosure to the government where reliable
assurances of confidentiality are in place. Thus, in
Citizens United II, the Second Circuit deemed similar
interests sufficient to justify New York’s law
compelling the disclosure to the government of
nonprofit organizations’ Schedule B forms at the lower
end of exacting scrutiny, where there were no wellpleaded allegations that the forms had ever been
inadvertently revealed to the public. See 882 F.3d at
384. But California’s extensive history of
inadvertently disclosing nonprofit organizations’
confidential Schedule B forms calls for more exacting
scrutiny. Moreover, targeted disclosure demands—
such as individualized audit letters and subpoenas—
remain at the State’s disposal to investigate groups
that are suspected of engaging in unlawful activity.
Under these circumstances, California’s
categorical disclosure requirement for any nonprofit
that seeks to solicit donations in the state cannot be
sustained. Pet. App. 45a–48a. Where, as here, the
26

disclosure demands are not even ostensibly tied to
public transparency regarding campaign finance, or
any other especially sensitive subject of regulation,
“[t]here is no substantial relation between the
requirement that the identity of donors to [nonprofit
organizations] be publicly disclosed and any
important government interest.” Citizens Union, 408
F. Supp. 3d at 504 (emphasis added).
This Court should therefore reverse the court of
appeals’ decision and hold that California’s donordisclosure requirement—on this record of recent,
extensive public disclosures without justification—
violates the First and Fourteenth Amendments as
applied to Petitioners. As-applied, rather than facial,
relief is appropriate here, for two reasons. First, asapplied challenges are often, though not always, “the
more proper way to call into question disclosure
regulations,” because the chill that accompanies
disclosure is the touchstone for the constitutional
analysis; groups that are not likely to be chilled by the
compelled disclosure are less likely to have a valid
First Amendment claim. Citizens United II, 882 F.3d
at 384 n.3; see also, e.g., Citizens United I, 558 U.S. at
370 (citing McConnell v. FEC, 540 U.S. 93, 198
(2003)).
Second, as-applied relief is appropriate because
Petitioners’ chill depends largely on California’s
recent failures to maintain the confidentiality of
Schedule B forms in its possession. If California
demonstrates a reliable commitment to maintaining
the confidentiality of Schedule B forms, then the
threatened chill to Petitioners’ donors may decrease,
and the donor-disclosure requirement may survive
under a more lenient form of exacting scrutiny. Under
those circumstances, California may once again
27

attempt to defend the constitutionality of its
disclosure requirement. But this Court need not reach
those questions at this juncture. On this record,
California’s
disclosure
requirement
violates
Petitioners’ rights under the First and Fourteenth
Amendments.
CONCLUSION
The Court should reverse the judgment below.
Respectfully Submitted,
Sherrilyn A. Ifill
President and DirectorCounsel
Janai S. Nelson
Samuel Spital
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
40 Rector Street, 5th Floor
New York, NY 10006

Brian M. Hauss
Counsel of Record
Jennesa Calvo-Friedman
Ben Wizner
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
(212) 549-2500
bhauss@aclu.org

Mahogane D. Reed
NAACP LEGAL DEFENSE &
EDUCATIONAL FUND, INC.
700 14th Street, NW
Washington, DC 20005

David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005

Alex Abdo
Ramya Krishnan

28

KNIGHT FIRST AMENDMENT
INSTITUTE AT COLUMBIA
UNIVERSITY
475 Riverside Drive, Suite
302
New York, NY 10115
Alphonso B. David
Sarah Warbelow
Jason E. Starr
THE HUMAN RIGHTS CAMPAIGN
1640 Rhode Island Ave, NW
Washington, DC 20036
Nora Benavidez
PEN AMERICA
588 Broadway, Suite 303
New York, NY 10012
Date: March 1, 2021

29

